No.
In the Supreme Court of the United States
REPUBLICAN NATIONAL COMMITTEE and REPUBLICAN PARTY OF RHODE ISLAND,
Applicants,
v.
COMMON CAUSE RHODE ISLAND, LEAGUE OF WOMEN VOTERS OF RHODE ISLAND,
MIRANDA OAKLEY, BARBARA MONAHAN, and MARY BAKER; NELLIE M. GORBEA, in her
official capacity as Secretary of State of Rhode Island; and DIANE C. MEDEROS,
LOUIS A. DESIMONE JR., JENNIFER L. JOHNSON, RICHARD H. PIERCE, ISADORE S.
RAMOS, DAVID H. SHOLES, and WILLIAM E. WEST, in their official capacities as
members of the Rhode Island Board of Elections,
Respondents.

APPENDIX TO EMERGENCY APPLICATION FOR STAY
To the Honorable Stephen Breyer,
Associate Justice of the Supreme Court of the
United States and Circuit Justice for the First Circuit

Brandon S. Bell
FONTAINE BELL & ASSOCIATES
1 Davol Sq. Penthouse
Providence, RI 02903
(401) 274-8800

Thomas R. McCarthy
Counsel of Record
Cameron T. Norris
CONSOVOY MCCARTHY PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
tom@consovoymccarthy.com

Joseph S. Larisa, Jr.
Patrick Strawbridge
LARISA LAW
CONSOVOY MCCARTHY PLLC
50 S. Main St., Ste.311
Ten Post Office Square
Providence, RI 02903
8th Floor South PMB #706
(401) 743-4700
Boston, MA 02109
Counsel for Applicants

TABLE OF CONTENTS
Court of Appeals Order Granting Intervention and Denying
Emergency Motion for Stay Pending Appeal........................................................ App. 1
District Court Memorandum and Order Denying Intervention
and Approving Consent Judgment ..................................................................... App. 13
Consent Judgment and Decree ........................................................................... App. 26
Transcript Excerpt from Fairness Hearing held on July 28, 2020 ................... App. 35

1

Case: 20-1753

Document: 00117626238

Page: 1

Date Filed: 08/07/2020

Entry ID: 6358730

United States Court of Appeals
For the First Circuit
No. 20-1753
COMMON CAUSE RHODE ISLAND; LEAGUE OF WOMEN VOTERS OF RHODE
ISLAND; MIRANDA OAKLEY; BARBARA MONAHAN; MARY BAKER,
Plaintiffs, Appellees,
v.
NELLIE GORBEA, in her official capacity as Secretary of State of
Rhode Island; DIANE C. MEDEROS, in her official capacities as
member of the Rhode Island Board of Elections; JENNIFER L.
JOHNSON, in her official capacities as member of the Rhode
Island Board of Elections; ISADORE S. RAMOS, in his official
capacities as member of the Rhode Island Board of Elections;
LOUIS A. DIMONE, JR., in his official capacities as member of
the Rhode Island Board of Elections; WILLIAM E. WEST, in his
official capacities as member of the Rhode Island Board of
Elections; RICHARD H. PIERCE, in his official capacities as
member of the Rhode Island Board of Elections; DAVID H. SOLES,
in his official capacities as member of the Rhode Island Board
of Elections,
Defendants, Appellees,
REPUBLICAN NATIONAL COMMITTEE; REPUBLICAN PARTY OF RHODE ISLAND,
Movants, Appellants.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF RHODE ISLAND
[Hon. Mary S. McElroy, U.S. District Judge]

Before
Torruella, Thompson, and Kayatta,
Circuit Judges.

App. 1

Case: 20-1753

Document: 00117626238

Page: 2

Date Filed: 08/07/2020

Entry ID: 6358730

Michael Courtney Keats, with whom Christopher H. Bell,
Nicholas Carre, Avani Uppalapati, Jonathan Diaz, Fried Frank
Harris Shriver & Jacobson LLP, Julie A. Ebenstein, Dale E. Ho,
American Civil Liberties Union Foundation, Inc., Lynette J.
Labinger, American Civil Liberties Union Foundation of Rhode
Island, Jonathan Diaz, Danielle Lang, Paul March Smith, and
Campaign Legal Center were on brief, for appellees Common Cause
Rhode Island, League of Women Voters of Rhode Island, Miranda
Oakley, Barbara Monahan, and Mary Baker.
Angel Taveras, with whom Gustavo Ribeiro, Elliot H. Scherker,
and Greenberg Traurig LLP were on brief, for appellee Nellie M.
Gorbea.
Raymond A. Marcaccio, with whom Oliverio & Marcaccio LLP was
on brief, for appellees Diane C. Mederos, Jennifer L. Johnson,
Isadore S. Ramos, Louis A. DeSimone, Jr., William E. West, Richard
H. Pierce, and David H. Sholes.
Cameron Thomas Norris, with whom Thomas R. McCarthy, Patrick
N. Strawbridge, Consovoy McCarthy PLLC, Brandon S. Bell, Fontaine
Bell, Joseph S. Larisa, Jr. were on brief, for appellants
Republican National Committee and Republican Party of Rhode
Island.

August 7, 2020

App. 2

Case: 20-1753

Document: 00117626238

Per curiam.

Page: 3

Date Filed: 08/07/2020

Entry ID: 6358730

In an action brought by Common Cause Rhode

Island, the League of Women Voters of Rhode Island, and three
individual Rhode Island voters against the Rhode Island Secretary
of State and members of its Board of Elections, the district court
denied a motion to intervene filed by the Republican National
Committee

and

the

Republican

Party

of

referred to here as the "Republicans").
hearing

at

which

the

court

Rhode

Island

(jointly

Following briefing and a

nevertheless

let

the

Republicans

participate more or less as if they had been allowed to intervene,
the court entered on July 30 a consent judgment and decree.
Effective for the September and November 2020 elections, the decree
suspended the state's requirements that a voter using a mail ballot
mark the ballot (and sign its envelope) in the presence of two
witnesses or a notary; and that the witnesses or notary, in turn,
sign the envelope, provide their addresses, and affirm in the space
provided that "Before me . . . personally appeared the above named
voter, to me known and known by me to be the person who affixed
his or her signature to this ballot envelope."
§§

17-20-2.1(d)(1),

17-20-2.1(d)(4),

See R.I. Gen. Laws

17-20-2.2(d)(1),

17-20-

2.2(d)(4), 17-20-21 and 17-20-23(c).
The Republicans promptly appealed the denial of their
motion to intervene and the entry of the consent judgment and
decree.

They also filed a motion to intervene to appeal and to

stay the district court's judgment and decree pending a decision

- 3 -

App. 3

Case: 20-1753

Document: 00117626238

Page: 4

on the merits of the appeal.

Date Filed: 08/07/2020

Entry ID: 6358730

After receiving expedited briefing

and hearing oral argument on the motion to intervene and stay, we
now reverse the denial of the motion to intervene for the purposes
of appeal only (we otherwise refrain from deciding the full scope
of

intervention

until

we

review

this

case

on

its

merits).

We deny the Republicans' motion to stay the judgment and decree
pending the outcome of the appeal.
In reviewing a motion to stay a consent judgment and
decree pending appeal, we consider the following factors:

"(1)

[W]hether the stay applicant has made a strong showing that it is
likely to succeed on the merits, (2) whether the applicant will be
irreparably injured absent a stay, (3) whether [the] issuance of
the stay will substantially injure the other parties interested in
the proceeding, and (4) where the public interest lies."

Nken v.

Holder, 556 U.S. 418, 426 (2009) (quoting Hilton v. Braunskill,
481 U.S. 770, 776 (1987)).
critical."

Id. at 434.

The first two factors "are the most
"It is not enough that the chance of

success on the merits be better than negligible. . . . By the same
token, simply showing some possibility of irreparable injury fails
to satisfy the second factor."

Id. at 434–35 (citations and

internal quotation marks omitted).
The parties agree that, at least in the first instance,
the likelihood of success turns in great part on whether enforcing
the two-witness or notary requirement in the midst of the pandemic

- 4 -

App. 4

Case: 20-1753

Document: 00117626238

is constitutional.

Page: 5

Date Filed: 08/07/2020

Entry ID: 6358730

The First and Fourteenth Amendments prohibit

states from placing burdens on citizens' rights to vote that are
not

reasonably

interests."

justified

by

states'

"important

regulatory

Anderson v. Celebrezze, 460 U.S. 780, 788–89 (1983);

see also Burdick v. Takushi, 504 U.S. 428, 430 (1992) (ruling that
Hawaii's

prohibition

of

write-in

voting

did

not

burden Hawaii citizens' constitutional rights).

unreasonably
So under the

Anderson-Burdick framework we weigh the "character and magnitude
of the asserted injury to" the voters' rights against the "precise
interests put forward by the State as justifications for the burden
imposed."

Anderson, 460 U.S. at 789.

We note as preliminary

matters first that the burdens imposed in this case may affect
more fundamental rights than those at issue in Anderson and Burdick
-- that is, they affect the voter's ability to actually cast a
ballot, not just the procedures for getting candidates on a ballot.
And second, unlike the process contemplated by the Court in
Anderson, we are unable to consider the "justifications put forward
by the State" here, as the "State" of Rhode Island has not objected
to the consent decree in any way.
The burden imposed by these requirements in the midst of
a pandemic is significant.

First, many more voters are likely to

want to vote without going to the polls and will thus only vote if
they can vote by mail.

Second, many voters may be deterred by the

fear of contagion from interacting with witnesses or a notary.

- 5 -

App. 5

Case: 20-1753

Document: 00117626238

Page: 6

Date Filed: 08/07/2020

Entry ID: 6358730

Could a determined and resourceful voter intent on voting manage
Certainly.1

to work around these impediments?

But it is also

certain that the burdens are much more unusual and substantial
than those that voters are generally expected to bear.

Taking an

unusual and in fact unnecessary chance with your life is a heavy
burden to bear simply to vote.
Turning

to

the

other

side

of

the

Anderson-Burdick

scales, we agree with the Republicans that, in the abstract, the
broader

regulatory

interest

--

preventing

voting

fraud

and

enhancing the perceived integrity of elections -- is substantial
and important.

But the incremental interest in the specific

regulation at issue (the two-witness or notary rule) is marginal
at best.

Only two other states have such a rule, and only a total

of twelve require even one witness.

In the current COVID-19

pandemic, Rhode Island may be the lone state where the election
laws still facially require the voter to mark his or her ballot
(as well as sign the envelope) before two witnesses or a notary.
Cf. Ala. Code § 17-11-10(b); N.C. Gen. Stat. Ann. § 163-231(a)(1);
N.C. Session Law 2020-17 § 1.(a) (reducing North Carolina's twowitness

requirement

to

one

witness

1

for

the

2020

elections).

For example, counsel for the Republicans suggested at
argument that senior voters, facing a higher risk of COVID-19
complications, could ask food delivery drivers to act as witnesses.
Of course, this suggestion would require that another witness be
available simultaneously with the food delivery driver, and that
the food delivery driver be able to certify the voter's identity.
- 6 -

App. 6

Case: 20-1753

Document: 00117626238

Page: 7

Date Filed: 08/07/2020

Entry ID: 6358730

Moreover, Rhode Island just successfully completed an election
without the two-witness or notary requirement in which over 150,000
mail-in ballots were requested and no evidence of fraud resulted,
much less material evidence of the type of fraud that could be
prevented by the two-witness or notary requirement in the first
place. So the state itself views the rule as -- at best -- required
in only some elections, with no coherent view (that we have heard)
about which elections those might be.

And Rhode Island officials

charged with the conduct of fair elections apparently view the
regulation's possible benefits as far outweighed by its burdens in
this unusual circumstance.

Indeed, no Rhode Island official has

stepped forward in these proceedings, even as amicus, to tout the
need for the rule.

This silence certainly does not mean that the

rule is not current Rhode Island law.

But it does fairly support

the view that the rule is not of great import for any particular
regulatory purpose in the eyes of Rhode Island officials and
lawmakers.
The

Republicans

also

struggle

significant likelihood of irreparable harm.

to

establish

They claim that their

candidates may be the victims of fraudulent ballots.
surely correct as a matter of theory.
matter of fact and reality.

any

This is

But it is dubious as a

It is not as if no protections remain.

Rhode Island law provides for a local board of canvassers which
ensures that the signature on all mail ballot applications (which

- 7 -

App. 7

Case: 20-1753

Document: 00117626238

Page: 8

Date Filed: 08/07/2020

Entry ID: 6358730

must be signed by the voter) matches the signature on the voter's
registration card.

R.I. Gen. Laws. § 17-20-10.

Once a voter

submits their ballot, the Board of Elections "[c]ompare[s] the
name, residence, and signature [on the ballot] with the name,
residence, and signature on the ballot application for mail ballots
and satisf[ies] itself that both signatures are identical."

R.I.

Gen. Laws. § 17-20-26 (c)(2).2

accorded

Given

the

to

district

a

Nken

standard,
court's

and

given

exercise

of

the

deference

its

equitable

discretion, Purcell v. Gonzalez, 549 U.S. 1, 5 (2006) (per curiam)
(explaining that it is "necessary, as a procedural matter, for the
Court of Appeals to give deference to the discretion of the
District

Court"),

the

foregoing

Republicans' motion for a stay.

would

normally

doom

the

The Supreme Court, however, has

offered a special caution about the perils of federal courts
changing the rules on the eve of an election.

Republican Nat'l

Comm. v. Democratic Nat'l Comm., 140 S. Ct. 1205, 1207 (2020)
("This Court has repeatedly emphasized that lower federal courts
should ordinarily not alter the election rules on the eve of an

2

The Republicans also argue that they will suffer irreparable
harm without a stay because allowing the elections to move forward
per the consent decree will effectively moot their challenge to
it. Without passing on whether this alleged harm is an appropriate
one
to
consider
for
the
purposes
of
irreparable
injury, see Providence Journal Co. v. F.B.I., 595 F.2d 889, 890
(1st Cir. 1979), we note that the appellees would face precisely
the same harm if we were to grant the stay.
- 8 -

App. 8

Case: 20-1753

Document: 00117626238

election."

(citing

Page: 9

Purcell,

549

Date Filed: 08/07/2020

U.S.

at

4–5

Entry ID: 6358730

("Court

orders

affecting elections, especially conflicting orders, can themselves
result in voter confusion and consequent incentive to remain away
from the polls."))).

Given those admonishments we would be

inclined to grant the stay requested -- especially as to the
September primaries -- but for two unique factors in this case.
First,

even

in

the

wake

of

this

much-publicized

litigation, Rhode Island itself has voiced no concern at all that
the consent judgment and decree will create any problems for the
state or its voter. To the contrary, the elected constitutional
officers charged with ensuring free and fair elections favor the
consent judgment and decree and credibly explain how setting aside
the consent judgment and decree would confuse voters.

Nor has any

other Rhode Island government entity sought to intervene or make
its opinion known.

This fact materially distinguishes this case

from every other case the Republicans cite to illustrate the
"Purcell principle."

See Republican Nat'l Comm., 140 S. Ct. at

1205 (Wisconsin legislature joining with the Republican National
Committee to challenge the district court's order); Purcell, 549
U.S. at 2 (State of Arizona and four counties seeking relief from
a Ninth Circuit injunction); People First of Ala. v. Sec. of State
for Ala., 2020 WL 3478093, at *1 (11th Cir. June 25, 2020) (State
of Alabama and Alabama Secretary of State seeking stay of district
court injunction), rev'd 2020 WL 3604049, at *1 (U.S. July 2, 2020)

- 9 -

App. 9

Case: 20-1753

Document: 00117626238

(staying

the

district

Page: 10

court's

Date Filed: 08/07/2020

preliminary

injunction

Entry ID: 6358730

pending

appeal); League of Women Voters of N.C. v. North Carolina, 769
F.3d 224, 248 (4th Cir. 2014) (ordering the district court to enter
a preliminary injunction challenged by the State of North Carolina
and members of its Board of Elections enjoining legislation setting
forth new voting rules), stayed at 574 U.S. 927 (2014); Ohio State
Conf. of N.A.A.C.P. v. Husted, 768 F.3d 524, 561 (6th Cir. 2014)
(affirming district court injunction enjoining the Ohio Secretary
of

State

from

preventing

individual

counties

from

setting

additional voting hours, challenged by Secretary of State and Ohio
Attorney General), stayed at 573 U.S. 988 (2014); Perry v. Perez,
835

F.

Supp.

2d

209

(W.D.

Tex.

2011)

(adopting

an

interim

redistricting plan against the objections of the state of Texas),
stayed at 565 U.S. 1090 (2011).
Second, Rhode Island just conducted an election without
any attestation requirement, in which 150,000 mail-in ballots were
requested.

So the status quo (indeed the only experience) for

most recent voters is that no witnesses are required. Instructions
omitting the two-witness or notary requirement have been on the
state's

website

Department

of

since
State,

at

least

Vote

mid-July.

from

Home

https://vote.sos.ri.gov/Voter/VotebyMail.

See

with
And

a

Rhode
Mail

to

the

Island
Ballot,
extent

certain voters expect the two-witness or notary requirement, we
cannot imagine that it will pose any difficulty not to have to

- 10 -

App. 10

Case: 20-1753

Document: 00117626238

comply with it.

Page: 11

Date Filed: 08/07/2020

Entry ID: 6358730

For this reason, the consent judgment and decree

poses no conflict with the sort of expectations that concerned the
court in Purcell and no substantial specter of confusion that might
deter voters from voting.

To the contrary, in the absence of the

consent decree, it is likely that many voters will be surprised
when they receive ballots, and far fewer will vote.

Perhaps as a

result, the Republicans make no claim that the decree will cause
a decrease in election participation.
Because of the unusual -- indeed in several instances
unique -- characteristics of this case, the Purcell concerns that
would

normally

support

a

stay

arguably militate against it.

are

largely

inapplicable,

and

Moreover, our reliance on Rhode

Island's passive reaction to the litigation precludes our holding
from being relied upon to open any floodgates.

To the contrary,

as experience shows, states will be quick to defend election laws
that they see as important and worth keeping, even when they might
burden voting.
We have paid attention, too, to the possibility that
this litigation is collusive, with defendants having agreed to
judgment just days after the suit was filed.

A state official

unhappy with the lawful decisions of the state legislature should
not be able to round up an agreeable plaintiff who then uses
collusive litigation to "force" the state to do what the official
wants.

Here, though, all other representatives of Rhode Island's

- 11 -

App. 11

Case: 20-1753

Document: 00117626238

Page: 12

Date Filed: 08/07/2020

Entry ID: 6358730

government have gone silent, voicing no objection at all to the
consent judgment and decree.

Furthermore, if state officials

fairly conclude, as credibly happened here, that enforcement of a
law is unconstitutional in certain circumstances, one can hardly
fault them for so acknowledging.

Indeed, the Secretary of State

and Board of Elections are obligated to enforce Rhode Island's
voting laws, provided those laws are not deemed unconstitutional.
R.I. const. art. III, § 3; R.I. const. art. IV, § 12. 17 R.I. Gen.
Laws §§ 17-7-4, 17-7-5.

Notice, too, was given to the attorney

general, who by law is obligated to act as legal advisor for all
state agencies and officers acting in their official capacity and
to defend them against suit, R.I. Gen. Laws § 42-9-6, and who
advised the defendants, herein, throughout the proceedings below.
And it would be odd indeed to say that a plaintiff cannot get
relief from an unconstitutional law merely because the state
official charged with enforcing the law agrees that its application
is unconstitutional.

Finally, there is no claim that the details

of the consent decree were not negotiated at arm's length.

All in

all, we see no collusion, and counsel for the Republicans expressly
so agreed at argument.
Finally, as to the Republicans' status as intervenors in
this case, the district court's order denying intervention is
reversed in part, only for purposes of appeal, and the motion for
stay pending appeal is denied.

- 12 -

App. 12

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 1 of 13 PageID #: 335

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF RHODE ISLAND
)
COMMON CAUSE RHODE ISLAND, )
)
LEAGUE OF WOMEN VOTERS OF
RHODE ISLAND, MIRANDA
)
)
OAKLEY, BARBARA MONAHAN,
and MARY BAKER,
)
)
Plaintiffs,
)
)
v.
)
C.A. No. 1:20-CV-00318-MSM-LDA
)
)
NELLIE M GORBEA, in her official
)
capacity as Secretary of State of
Rhode Island; DIANE C. MEDEROS, )
)
LOUIS A. DESIMONE JR.,
JENNIFER L. JOHNSON, RICHARD )
)
H. PIERCE, ISADORE S. RAMOS,
)
DAVID H. SHOLES, and WILLIAM
)
WEST, in their official capacities as
members of the Rhode Island Board of )
)
Elections,
)
)
Defendants.
MEMORANDUM AND ORDER
Mary S. McElroy, United States District Judge.
The plaintiffs, Common Cause Rhode Island, League of Women Voters of
Rhode Island, Miranda Oakley, Barbara Monahan, and Mary Baker, filed this action
seeking to enjoin the State’s enforcement of the witness or notary requirement for the
two upcoming statewide elections in 2020: the primary election on September 8 and
the general election on November 3. The plaintiffs have named as defendants the
Rhode Island Secretary of State and the members of the Rhode Island Board of
Elections.
1

App. 13

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 2 of 13 PageID #: 336

The parties have submitted to the Court a proposed Consent Judgment and
Decree (“Consent Decree”) which would resolve the plaintiffs’ claims. On July 28,
2020, the Court conducted a Fairness Hearing to review the proposed Consent
Decree. For the following reasons, the Court approves the Consent Decree and
thereby GRANTS the parties’ Joint Motion to Approve Consent Judgment (ECF No.
18.)
I.

BACKGROUND

With exceptions related to voters in medical facilities, abroad, or out of state
for military service, Rhode Island law requires that any voters seeking to vote by mail
must have their ballot envelope signed by either two witnesses or a notary public.
R.I.G.L. §§ 17-20-2.1(d)(1), (d)(4) (“[T]he signature on the certifying envelopes
containing a voted ballot must be made before a notary public or two (2) witnesses
who shall set forth their addresses on the form.”). The two witnesses or the notary for
each ballot must actually witness the voter marking the ballot. R.I.G.L. §§ 17-20-21
and 17-20-23. Rhode Island is one of three states with such a requirement.1
All the parties share a concern with the integrity of the election process. The
Secretary of State and Rhode Island Board of Elections share a statutory obligation
to ensure full and fair elections, and the Court examines this Consent Decree with a
specific eye on that public interest. To the extent that some have suggested the
signature and notary requirements are necessary to prevent voter fraud, Rhode

The other states with such requirements are Alabama and North Carolina. See
Ala. Code §§ 17-11-7, 17-11-10; N.C. Gen. Stat. Ann. § 163-231(a).
1

2

App. 14

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 3 of 13 PageID #: 337

Island law includes other measures to safeguard against fraud in mail-ballot
procedures. The Board of Elections is statutorily required to assess mail-in ballots to
ensure that the name, residence, and signature on the ballot itself all match that
same information on the ballot application, including ensuring “that both signatures
are identical.” R.I.G.L. § 17-20-26(c)(2). Additionally, voter fraud in Rhode Island is
a felony, punishable by up to ten years of imprisonment and/or a fine of between
$1,000 and $5,000. R.I.G.L. §§ 17-23-4, 17-26-1.
Due to the COVID-19 pandemic, Rhode Island’s Governor, by executive order,
suspended the two-witness or notary requirement for mail ballots in the June 2, 2020,
presidential preference primary. R.I. Exec. Order No. 20-27 at 2 (Apr. 17, 2020). In
that election, 83% of those voting did so by mail-in ballot, compared to less than 4%
in the previous presidential preference primary of May 2016. The Governor has not
issued any similar orders for the upcoming elections, despite the Secretary of State’s
proposal to do so. Further, the Secretary of State promoted legislation to implement
mail-in voting for the remaining 2020 elections, including a provision to eliminate the
witness or notary requirement. The Rhode Island House of Representatives passed
this legislation, but it was not taken up by the Rhode Island Senate. At this time,
the Rhode Island General Assembly has adjourned.
During this period of inaction, the COVID-19 pandemic, while it has improved
in Rhode Island since the presidential preference primary, continues to threaten and
permeate society in this state. Because COVID-19 spreads mainly from person-toperson through close contact with one another and through respiratory droplets when

3

App. 15

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 4 of 13 PageID #: 338

an infected person coughs or sneezes, mask wearing, social distancing practices, and
limitations on the size of group gatherings continue to be public health mandates.
Persons in particularly vulnerable demographics—those over age 65 or with
preexisting health conditions—remain advised to stay home unless they must
venture out for work, medical visits, or to gather necessities.
Although Rhode Island had made much progress in slowing the spread of the
virus, recent warnings indicate an uptick in infections and just days before this filing
the Rhode Island Governor rescinded a planned move to Stage 4 of the state’s
reopening plan which would have relaxed restrictions on gatherings and public
excursions. In fact, the governor reduced the maximum size of in person gatherings
at a coronavirus briefing held on July 29, 2020.2 Rhode Island’s rate of transmission
has risen to 1.7 – nowhere near the 1.0 goal. With the elections months away, there
is no telling whether the health crisis will improve or become dramatically worse.
The most reasonable inference, since Rhode Island is in a worsening trend, is that it
will become more grave.
The plaintiffs maintain that the two signature or notary requirement will drive
them out of their houses into the general population, with the risk to health that
entails. The plaintiffs have presented data from the U.S. Census Bureau which
demonstrates that a large portion of the Rhode Island electorate lives alone. As of
2018, 197,000 Rhode Islanders over the age of 18, 23.45% of the State’s voting-age

https://www.providencejournal.com/news/20200729/ri-reports-2-coronavirusdeaths-61-new-cases-raimondo-reduces-limit-on-social-gatherings.
2

4

App. 16

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 5 of 13 PageID #: 339

population, live alone. Another 289,000 Rhode Islanders of voting age live with only
one other person. Of the 197,000 Rhode Islanders of voting age who live alone, an
estimated 59,000 are aged 65 and older, accounting for 37.82% of all those aged 65
and over in Rhode Island. For Rhode Islanders of voting age with a disability, an
estimated 42,000, or 42%, live alone.
The individual plaintiffs, Miranda Oakley, Barbara Monahan, and Mary
Baker, all have provided the Court with affidavits stating that they either live alone
or are in high risk groups for COVID-19 because they are of advanced age or are
regularly in close contact with those that are, or have preexisting medical conditions.
The organizational plaintiffs, Common Cause and the League of Women Voters, have
provided affidavits attesting that the majority of their members, who are voters, are
of advanced age while others live alone or have preexisting health conditions. It is
their concern that the witness or notary requirements would force them to make “an
impossible choice between two irreparable harms—violating social distancing
guidelines designed to protect them and their loved ones and foregoing their
fundamental right to vote.” (ECF No. 5-1 at 1.)
The plaintiffs therefore have filed the instant suit, putting forth (1) a 42 U.S.C.
§ 1983 claim that the mail-ballot witness or notary requirement, as applied to the
September 2020 primary and November 2020 general elections, imposes an undue
burden on their right to vote in violation of the First and Fourteenth Amendments to
the United States Constitution; and (2) a claim for violation of Title II of the
Americans with Disabilities Act, 42 U.S.C. § 12131 et seq. because the challenged

5

App. 17

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 6 of 13 PageID #: 340

provisions disadvantage individuals with disabilities from participating safely in the
upcoming elections and do not provide them with reasonable accommodations.
Regarding their constitutional claim, the plaintiffs assert that the witness
requirement for mail voting constitutes “a severe burden on the right to vote because
it forces voters to choose between exercising the franchise safely or violating social
distancing guidelines and exposing themselves, their families, and their communities
to a heightened risk of COVID-19.” (ECF No. 1 ¶ 60.) Moreover, they argue, the
State has no interest sufficient to justify maintaining the witness requirement during
the COVID-19 pandemic.

In response to the argument that the witnessing

requirement ensures the integrity of the election, the plaintiffs counter that, while
the prevention of fraud is a legitimate state interest, the state has other safeguards,
including signing under oath and signature matching which protect the integrity of
the voting process. There is no information in the record, nor was any brought forth,
that recent Rhode Island elections are susceptible to fraud.
On July 23, 2020, shortly after filing their Complaint, the plaintiffs moved for
a preliminary injunction to enjoin the defendants from enforcing the witness or
notary requirements. The Court held a conference with all parties on Friday, July
24, 2020, at which time the parties informed the Court that they would seek to craft
a consent decree, due to the defendants’ sharing of the plaintiffs’ concerns and general
agreement with the plaintiffs’ request, thus possibly obviating the need to proceed
with the plaintiffs’ motion for a preliminary injunction. The parties agreed to discuss
a consent decree over the weekend and the Court scheduled a hearing on the

6

App. 18

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 7 of 13 PageID #: 341

plaintiffs’ motion for Monday, July 27, in the event the negotiations failed.
Also discussed at the Friday, July 24, conference was the Rhode Island
Republican Party’s publicly stated intention to seek to intervene in the matter and
oppose the plaintiffs’ Complaint.3 On that same Friday, counsel for the Secretary of
State informed counsel for the Rhode Island Republican Party that the parties were
going to negotiate a consent decree and that if the Republican Party was going to
attempt to intervene, it should do so quickly. Yet, it was not until more than 48 hours
later, at approximately midnight on Sunday, July 26, that the Republican National
Committee (“RNC”) and the Rhode Island Republican Party filed a Motion to
Intervene.4
By Monday, July 27, the parties had reached an accord and presented the
Court with a proposed Consent Decree for review. That same day, the Court held
another conference with the parties and with representatives of the proposed
intervenors, the RNC and Rhode Island Republican Party. The proposed intervenors,
in addition to seeking to intervene, filed an emergency “Protective Motion For
Fairness Hearing” to present arguments opposing the proposed Consent Decree. The
Court granted the request for the Fairness Hearing. Although the Court deferred
ruling on the Motion to Intervene, it allowed the proposed intervenors to participate

In fact, the local Republican Party had announced that intention the day before,
on the same day that this suit was filed.
http://www.ri.gop/aclu_puts_the_integrity_of_our_elections_at_risk (July 23, 2020).

3

Notably that motion was not perfected until approximately 6:30 p.m. on Monday
July 27 by the filing of a proposed answer. See FRCP 24 (c).
4

7

App. 19

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 8 of 13 PageID #: 342

in the fairness hearing and to provide the Court with written briefing in advance of
that hearing. The proposed intervenors did file an Objection to the proposed Consent
Decree and were heard, in equal measure to the parties, at the Fairness Hearing.
The Court conducted the Fairness Hearing on July 28, 2020, during which
counsel for all parties, as well as the proposed intervenors, presented argument for
and against approval of the proposed Consent Decree and on the Motion to
Intervene.5

At the Fairness Hearing, the Court heard argument on the RNC and Rhode Island
Republican Party’s Motion to Intervene. The Court denied that Motion, finding that
the proposed intervenors had not timely sought to intervene and that their interest,
for a fair and lawful election, was adequately represented by the existing parties. See
Fed. R. Civ. P. 24. Specifically, even though the time between the filing of the lawsuit
and the Motion to Intervene was short in terms of actual days, it was well within the
capability of the RNC and local party to meet. Although the RNC protests it did not
hire its counsel until Saturday night, delay is counted toward litigants, not lawyers,
and the local Party was already represented. Nothing, certainly, prohibited the RNC
even on Saturday night from filing a motion to intervene, announcing its intention,
and seeking more time if necessary, to file a memorandum. That, at least, would
have put the parties on formal notice that the RNC was prepared to actively
participate. Instead, the parties worked extensively over the weekend toward
crafting a settlement. In addition, the Court found that the RNC did not assert an
interest any different from that asserted by the named defendants. They simply
claimed a desire to “protect” their voters from possible election fraud and to see that
existing laws remained enforced. That is the same interest the defendant agencies
are statutorily required to protect. The point of the would-be intervenors was their
naked assertion that the defendant-parties were not adequately protecting those
interests because there had been “collusion” between them and the plaintiffs. This
Court found no evidence of collusion. The fact that two agencies with expertise
independently reached the conclusion that the health risk was real, that the
signature and notary requirements unduly burdened the right to vote, and that the
parties could reach a workable solution that protected the integrity of the election,
does not show collusion. If anything, it points to the reasonableness and fairness of
the Consent Decree. Finally, the Court rejected the proposed intervenors’ main
argument that “changing the rules” on the eve of an election would cause voter
confusion. In fact, the opposite is true. The last rules explained to voters eliminated
the signature and notary requirement for the June 2, 2020, presidential preference
5

8

App. 20

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 9 of 13 PageID #: 343

II.

LEGAL STANDARD

A consent decree “embodies an agreement of the parties,” that they “desire and
expect will be reflected in, and be enforceable as, a judicial decree.” Aronov v.

Napolitano, 562 F.3d 84, 90–91 (1st Cir. 2009) (quoting Frew ex rel. Frew v. Hawkins,
540 U.S. 431, 437 (2004)). Because it is entered as an order of the court, a consent
decree is distinguished from a private settlement in that the latter do not “entail
judicial approval and oversight.” Id.
For that reason, a “court entering a consent decree must examine its terms to
be sure they are fair and not unlawful.” Id. at 91. Approval of a consent decree is
“committed to the trial court’s informed discretion.” Puerto Rico Dairy Farmers Ass'n

v. Pagan, 748 F.3d 13, 20 (1st Cir. 2014). “Woven into the abuse of discretion
standard here is a ‘strong public policy in favor of settlements ….’” Id. (quoting U.S.

v. Comunidades Unidas Contra La Contaminacion, 204 F.3d 275, 280 (1st Cir. 2000)).
Should a third-party object to a consent decree, that party is entitled “to
present evidence” and “have its objections heard.” Id. (quoting Local No. 93, Int'l Ass'n

of Firefighters, AFL–CIO v. City of Cleveland, 478 U.S. 501, 529 (1986)). The key
consideration in this type of inquiry is whether there has been “a fair opportunity to
present relevant facts and arguments to the court, and to counter the opponent's
submissions.”

Id.

The objecting party’s “right to be heard, however, does not

translate into a right to block a settlement.” Id. (citing Local No. 93, 478 U.S. at 529).
When reviewing a consent decree,

primary. Approving the Consent Decree maintained that status quo. Enforcing the
signature and notary requirement would have “changed the rules.”
9

App. 21

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 10 of 13 PageID #: 344

the district court must assure itself that the parties have validly
consented; that reasonable notice has been given possible
objectors; that the settlement is fair, adequate, and reasonable;
that the proposed decree will not violate the Constitution, a
statute, or other authority; that it is consistent with the objectives
of Congress; and, if third parties will be affected, that it will not
be unreasonable or legally impermissible as to them.

Durrett v. Hous. Auth. of City of Providence, 896 F.2d 600, 604 (1st Cir. 1990).
III.

DISCUSSION

The Court is satisfied that the parties to the Consent Decree—the plaintiffs,
the Secretary of State, and the members of the Board of Elections—all have validly
consented to its terms. The Consent Decree was drafted by those parties over a
weekend of negotiations. Additionally, reasonable notice has been given to possible
objectors: the RNC and local Republican Party were given an opportunity to provide
the Court with extensive briefing and to argue their position at the Fairness Hearing.
While the Consent Decree seeks to transgress existing Rhode Island statutory
election law, had there been a hearing on the merits of the plaintiffs’ prayer for
injunctive relief, the Court would have found that the mail-ballot witness or notary
requirement, as applied during the COVID-19 pandemic, is violative of the First and
Fourteenth Amendments to the United States Constitution because it places an
unconstitutional burden on the right to vote. As the supreme law of the land, the
United States Constitution supersedes any conflicting state statute. See U.S. Const.
Art. IV. The Court therefore finds that the Consent Decree is lawful.
The Court also finds that the Consent Decree is fair, adequate, and reasonable.
The RNC argued that the because the defendants generally were in agreement with

10

App. 22

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 11 of 13 PageID #: 345

the plaintiffs’ position on the witness or notary requirement, the litigation lacked
adversarial vigor which made it collusive and, therefore, unfair. (ECF No. 21 at 1920.) But no evidence of collusion among the parties has been presented to this Court;
in fact, the parties have represented that they engaged in good-faith negotiations in
the crafting of the Consent Decree’s terms. It is clear that the Consent Decree was a
compromise reached after sincere, arm’s length negotiations. Indeed, the plaintiffs
sought to do away with all extra identity requirements such as providing, in
appropriate circumstances, the last four digits of a voter’s Social Security Number or
a photographic ID.

But the parties agreed to suspend the witness and notary

requirement and retain these extra identity requirements. This compromise and the
fact that the plaintiffs did not get everything that they sought in the Consent Decree,
as well the fact that the defendants notified the proposed intervenors of the status of
the case immediately after Friday’s conference suggest that the proposed intervenors’
argument that this agreement was not at arm’s length and was otherwise collusive
is wholly without merit or evidence.
The adequacy and reasonableness of the Consent Decree also is evident by the
fact that it sets forth the exact mail-ballot protocols successfully used during the June
2, 2020, presidential preference primary.
Finally, the Consent Decree is not legally impermissible as to the RNC or the
Rhode Island Republican Party. Had the parties not reached a Consent Decree to
suspend the witness or notary requirements for the remaining 2020 elections, this
Court is empowered to find that the requirement, as applied in the current pandemic,

11

App. 23

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 12 of 13 PageID #: 346

unconstitutionally limits voting access, and therefore order precisely what the
Consent Decree achieves. See, e.g., Burdick v. Takushi, 504 U.S. 428, 434 (1992)
(holding that the constitutionality of election laws depends upon a court’s balancing
of the character and magnitude of any law burdening the right to vote against the
relevant government interest served by the law); Anderson v. Celebrezze, 460 U.S.
780, 788 (1983); Barr v. Galvin, 626 F.3d 99, 109 (1st Cir. 2010).
The proposed intevenors argued at the Fairness Hearing that, even if this
Court were to find that the statutory requirement, as applied during the current
pandemic was violative of the constitution, the Court would be powerless to intervene
as the legislature had not acted. This rather improbable argument, when taken to
its extreme would mean that no court could invalidate unconstitutional restrictions
on voting as long as state legislatures had declined to do so. A long history of federal
court review of voting laws says the contrary. “Undeniably the Constitution of the
United States protects the right of all qualified citizens to vote, in state as well as in
federal elections. A consistent line of decisions by this Court in cases involving
attempts to deny or restrict the right of suffrage has made this indelibly clear. It has
been repeatedly recognized that all qualified voters have a constitutionally protected
right to vote.” Reynolds v. Sims, 377 U.S. 533, 554-56 (1964).
IV.

CONCLUSION

For the foregoing reasons, the parties’ Joint Motion to Approve Consent
Judgment (ECF No. 18) was GRANTED on July 28, 2020. The Court therefore enters
the Consent Judgment and Decree (ECF No. 18-1).

12

App. 24

Case 1:20-cv-00318-MSM-LDA Document 25 Filed 07/30/20 Page 13 of 13 PageID #: 347

IT IS SO ORDERED.
_________________________________
Mary S. McElroy
United States District Judge
July 30, 2020

13

App. 25

Case 1:20-cv-00318-MSM-LDA Document 26 Filed 07/30/20 Page 1 of 9 PageID #: 348

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF RHODE ISLAND

COMMON CAUSE RHODE ISLAND, LEAGUE OF
WOMEN VOTERS OF RHODE ISLAND, MIRANDA
OAKLEY, BARBARA MONAHAN, and MARY
BAKER,
Plaintiffs,
- against NELLIE M. GORBEA, in her official capacity as Secretary
of State of Rhode Island; DIANE C. MEDEROS, LOUIS
A. DESIMONE JR., JENNIFER L. JOHNSON,
RICHARD H. PIERCE, ISADORE S. RAMOS, DAVID
H. SHOLES, and WILLIAM E. WEST, in their official
capacity as members of the Rhode Island Board of
Elections,

Case No. 1:20-cv-00318-MSMLDA

Defendants.

CONSENT JUDGMENT AND DECREE
1.

Whereas Rhode Island law requires voters eligible to vote by mail, subject to very

limited exclusions, to sign the certifying envelopes which contain their ballots before a notary
public or two witnesses, in order for their votes to be counted (the “two witness requirement”).
R.I. Gen. Laws §§ 17-20-2.1(d)(1), 17-20-2.1(d)(4), 17-20-2.2(d)(1), 17-20-2.2(d)(4), 17-20-21
and 17-20-23(c). The two witnesses or the notary for each ballot must actually witness the voter
marking the ballot. R.I. Gen. Laws §§ 17-20-21 and 17-20-23(c). Rhode Island is in the minority
of states with such a requirement.
2.

Whereas Rhode Island and America are currently suffering from the effects of a

global pandemic. The novel coronavirus, SARS-CoV-2, causes individuals to contract COVID19, and spreads mainly from person-to-person through close contact with one another and
through respiratory droplets when an infected person coughs or sneezes. COVID-19 threatens the

1

App. 26

Case 1:20-cv-00318-MSM-LDA Document 26 Filed 07/30/20 Page 2 of 9 PageID #: 349

health of any individual no matter their age, although older persons are particularly vulnerable.
As of July 24, 2020, Rhode Island has experienced over 18,000 confirmed cases and over 1,000
deaths from COVID-19.
3.

Whereas Rhode Island Governor Raimondo issued an Executive Order on March

9, 2020 declaring a state of emergency which has been extended at least through August 2, 2020.
R.I. Exec. Order No. 20-52 (July 3, 2020). Shortly after declaring a state of emergency,
Governor Raimondo issued an executive order announcing that the Rhode Island Department of
Health “determined that it is necessary to further reduce the size of mass gatherings.” R. I. Exec
Order No. 20-09 (March 22, 2020). While Governor Raimondo has since eased restrictions on
the maximum permissible size for public gatherings, she has cautioned that citizens should
continue to avoid mass gatherings. R.I. Exec. Order No. 20-50 (June 29, 2020). The Governor
explained that “the lower the attendance and gathering size, the lower the risk.” Id. She
emphasized that a key message for the public is to “[k]eep groups consistent and small.” Id.
4.

Whereas the two witness requirement necessitates that some individuals will

invite one or two persons into their home, or travel outside their home to meet these witnesses.
Either of these situations may violate social distancing guidelines and increase the likelihood that
those involved will contract COVID-19 and transmit it to others. For this reason, the two witness
requirement may carry a high risk to the general public’s health. Rhode Island voters’ other
option, in-person voting, also may contain a risk to the general public’s health. Voting in person
involves waiting in line with other voters, interacting with poll workers, and touching voting
equipment, which also violates social distancing guidelines.
5.

Whereas Rhode Island has other laws to maintain the integrity of the electoral

process. Mail-in ballots are assessed to ensure that the name, residence, and signature on the

2

App. 27

Case 1:20-cv-00318-MSM-LDA Document 26 Filed 07/30/20 Page 3 of 9 PageID #: 350

ballot itself all match that same information on the ballot application. R.I. Gen. Laws 17-2026(c)(2). Further, voting fraudulently is a felony in Rhode Island, punishable by up to ten years
of imprisonment with a fine between $1,000 and $5,000. R.I. Gen. Laws §§ 17-23-4 & 17-26-1.
6.

Whereas on March 26, 2020 the State Board of Elections voted to suspend the

two witness requirement for mail ballots for the June 2, 2020 presidential primary,
acknowledging that the requirements may result in close contact between the voter and other
people, which is a known cause of transmitting COVID-19. On April 17, 2020 Governor
Raimondo issued Executive Order 20-27, which suspended the two witness requirement
challenged here for the June 2, 2020 presidential primary election. R.I. Exec. Order No. 20-27
(Apr. 17, 2020).
7.

Whereas the suspension of the two witness requirement for the June presidential

primary was successful. 83% of Rhode Island voters exercised their fundamental right to vote via
mail-in ballot. 2020 Presidential Preference Primary Statewide Summary, ST. OF R.I. BD. OF
ELECTIONS (updated July 3, 2020),
https://www.ri.gov/election/results/2020/presidential_preference_primary/#. Voting by mail was
used most extensively by older voters. In comparison, less than 4% of the votes in the May 2016
presidential preference primary were cast by mail. A presentation published by the Election Task
Force (“ETF”), established by Defendant Secretary Gorbea’s office, reflected that “[r]emoving
the two witness/notary signature requirement on ballots made it easier for older Rhode Islanders
and those living alone” to vote safely. 2020 Presidential Primary Election Task Force
Presentation 4, R.I. DEP’T OF ST. (July 9, 2020),
https://vote.sos.ri.gov/Content/Pdfs/PPP%20Task%20Force%20July%209%202020%20Final.pd
f. As a result of these measures, the ETF concluded that the Governor’s executive order was a

3

App. 28

Case 1:20-cv-00318-MSM-LDA Document 26 Filed 07/30/20 Page 4 of 9 PageID #: 351

success and led to a “[d]ecreased number of in-person voters [which] allowed for social
distancing best practices.” Id. The Election Task Force proposed that Rhode Island follow the
same course for the September and November 2020 elections.
8.

Whereas Rhode Island will hold two statewide election days in the remaining part

of 2020. Primary elections for offices including U.S. Congress, Rhode Island Senate, and Rhode
Island House of Representatives will be held on September 8, 2020. On July 13, 2020
Defendants constituting the State Board of Elections voted unanimously to suspend the witness
and notary public requirements for the mail ballot certification envelope, under the requirements
set forth under Chapter 20 of Title 17 of the General Laws in order to mitigate exposure to
COVID 19. Defendant Secretary Gorbea also believes the two witness requirement should be
suspended for the State’s September and November, 2020 elections.
9.

Whereas on July 23, 2020, the League of Women Voters of Rhode Island,

Common Cause Rhode Island, Ms. Miranda Oakley, Ms. Barbara Monahan, and Ms. Mary
Baker (“Plaintiffs”) filed a complaint against the above-named Defendants challenging
enforcement during the ongoing public health crisis caused by the spread of COVID-19 of Rhode
Island’s two witness requirement. Plaintiffs moved for a temporary restraining order and
injunctive relief enjoining Defendants from enforcing the two witness requirement, R.I. Gen.
Laws §§ 17-20-2.1(d)(1), 17-20-2.1(d)(4), 17-20-2.2(d)(1), 17-20-2.2(d)(4), 17-20-21 and 17-2023(c), for the State’s pending September 8, 2020 primary and November 3, 2020 general
elections.
10.

Whereas for qualified electors who wish to vote by mail, their mail ballot

applications must be received by the voter’s local board by August 18, 2020 and October 13,

4

App. 29

Case 1:20-cv-00318-MSM-LDA Document 26 Filed 07/30/20 Page 5 of 9 PageID #: 352

2020 for the State primary and general election, respectively. The State must print ballots for
these elections imminently.
11.

Whereas in light of the data that supports the Plaintiffs’ concerns for their safety if

they are required to interact with others in order to cast their ballot in the pending September 8,
2020 primary and November 3, 2020 general elections, Plaintiffs and Defendants (collectively,
the “Consent Parties”) agree that an expeditious resolution of this matter in the manner
encompassed by the terms of this Consent Order, is in the best interests of the health, safety, and
constitutional rights of the citizens of Rhode Island, and therefore in the public interest.
12.

Whereas the Consent Parties further agree that no eligible voter should have to

choose between casting a ballot that will count and placing their own health at risk.
13.

Whereas Defendants agree not to enforce the two witness requirement for the

September 8, 2020 primary and November 3, 2020 general elections. The Consent Parties further
agree that nothing in this Consent Order shall restrict the Defendants from requesting that that
mail voters provide their Rhode Island Driver’s License or State ID number, the last four digits
of their Social Security number, or their phone number, as further identification verification, so
long as the request makes clear that the provision of such information is optional.
14.

Whereas Plaintiffs agree to a waiver of any entitlement to damages, fees,

including attorneys’ fees, expenses, and costs, that may have accrued as of the date of the entry
of this Consent Order, with respect to the claims raised by Plaintiffs in this action.
15.

Whereas the Court finds that it has subject matter jurisdiction over the Consent

Parties and that this Consent Order is fair, adequate, and reasonable and that it is not illegal, a
product of collusion, or against the public interest, because such agreement preserves the
constitutional right to vote of Plaintiffs and other Rhode Island voters while promoting public

5

App. 30

Case 1:20-cv-00318-MSM-LDA Document 26 Filed 07/30/20 Page 6 of 9 PageID #: 353

health during a pandemic and does so without harming the integrity of Rhode Island’s elections.
It gives appropriate weight to Defendants’ expertise and public interest responsibility in the area
of election administration.
IT IS HEREBY ORDERED, ADJUDGED, AND DECREED FOR THE REASONS
STATED ABOVE IN PARAGRAPHS 1-15 THAT:
1.

The two witness requirement set forth in R.I. Gen. Laws §§ 17-20-2.1(d)(1), 17-

20-2.1(d)(4), 17-20-2.2(d)(1), 17-20-2.2(d)(4), 17-20-21 and 17-20-23(c) shall be suspended for
the September 8, 2020 primary or November 3, 2020 general elections. Defendants members of
the Rhode Island Board of Elections shall not enforce the requirements set forth in R.I. Gen.
Laws §§ 17-20-2.1(d)(1), 17-20-2.1(d)(4), 17-20-2.2(d)(1), 17-20-2.2(d)(4), 17-20-21 and 17-2023(c) that qualified electors who vote by mail sign the certifying envelope which contains their
ballot before a notary public or two witnesses for the September 8, 2020 primary or November 3,
2020 general elections.
2.

As of the date of this Consent Order, Defendant Secretary Gorbea shall not print

or distribute to qualified electors any ballots, envelopes, instructions, or other materials directing
qualified electors who vote by mail to sign the certifying envelope which contains their ballot
before a notary public or two witnesses or requiring a notary public’s or two witnesses’
signatures on the certifying envelopes.
3.

Defendants Secretary Gorbea and members of the Rhode Island Board of

Elections shall issue guidance instructing all relevant local election officials and boards of
canvassers that, for the September 8, 2020 primary and November 3, 2020 general elections, no
mail ballot cast by a registered voter may be rejected for failure to include the signature of either
two witnesses or a notary.

6

App. 31

Case 1:20-cv-00318-MSM-LDA Document 26 Filed 07/30/20 Page 7 of 9 PageID #: 354

4.

Defendant Secretary Gorbea shall take all actions necessary to modify or amend

the printed instructions accompanying each mail ballot provided to voters for the September 8,
2020 primary and November 3, 2020 general elections, to inform voters that any mail ballot cast
in these elections without witness signatures will not be rejected on that basis.
5.

Defendants Secretary Gorbea and members of the Rhode Island Board of

Elections shall inform the public that the two witness requirement will be suspended for the
September 8, 2020 primary and November 3, 2020 general elections on their existing web sites
and social media, including frequently asked questions, and any recorded phone lines.
6.

Plaintiffs will withdraw their motion for a temporary restraining order and

preliminary injunction.
7.

The within Consent Order, upon entry by the Court, shall be the final judgment of

the Court. Each party shall bear their own fees, expenses, and costs.

Entered as the Judgment of this Court this ____
2020.
July
28 day of _________________,

__________________________________
Mary S. McElroy
UNITED STATES DISTRICT JUDGE
July ___,
28 2020
Providence, Rhode Island

7

App. 32

Case 1:20-cv-00318-MSM-LDA Document 26 Filed 07/30/20 Page 8 of 9 PageID #: 355

/s/ Angel Taveras
Angel Taveras, Esq. (Bar No. 5552)
GREENBERG TRAURIG, LLP
One International Place, Suite 2000
Boston, MA 02110
Telephone: (617) 310-6096
Facsimile: (617) 310-6001
taverasa@gtlaw.com

/s/ Lynette Labinger
Lynette Labinger, Esq. (Bar No.1645)
128 Dorrance St., Box 710
Providence, RI 02903
(401) 465-9565 (phone)
ll@labingerlaw.com
Cooperating counsel,
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION OF RHODE ISLAND

Attorney for Defendant Secretary Gorbea
/s/ Raymond A. Marcaccio
Raymond A. Marcaccio, Esq.
Oliverio & Marcaccio LLP
55 Dorrance Street
Suite 400
Providence, RI 02903
Phone 401.861.2900
Fax
401.861.2922
ram@om-rilaw.com

/s/ Julie A. Ebenstein
Julie A. Ebenstein, Esq.
(admitted pro hac vice)
Dale E. Ho, Esq. (pro hac vice pending)
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION, INC.
125 Broad Street, 18th Floor
New York, NY 10004
(212) 284-7332 (phone)
jebenstien@aclu.org
Attorney for Defendants members of the Rhode dho@aclu.org
Island Board of Elections
/s/ Danielle Lang
Danielle Lang, Esq. (admitted pro hac vice)
Jonathan Diaz, Esq. (admitted pro hac vice)
CAMPAIGN LEGAL CENTER
1101 14th St. NW, Suite 400
Washington, DC 20005
(202) 736-2200 (phone)
dlang@campaignlegal.org
jdiaz@campaignlegal.org
sleeper@campaignlegal.org

8

App. 33

Case 1:20-cv-00318-MSM-LDA Document 26 Filed 07/30/20 Page 9 of 9 PageID #: 356

/s/ Michael C. Keats
Michael C. Keats, Esq. (admitted pro hac vice)
Christopher H. Bell, Esq.*
(admitted pro hac vice)
FRIED, FRANK, HARRIS, SHRIVER
& JACOBSON LLP
One New York Plaza
New York, NY 10004
(212) 859-8914 (phone)
(212) 859-4000 (fax)
Michael.Keats@friedfrank.com
Christopher.Bell@friedfrank.com
*Admitted only in Pennsylvania; not admitted
in the District of Columbia; supervised by a
member of the District of Columbia Bar.
Attorneys for Plaintiffs

9

App. 34

1

1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF RHODE ISLAND

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16

* * * * * * * * * * * * * * * * CA NO. 20-318-MSM
*
COMMON CAUSE RHODE ISLAND,
*
LEAGUE OF WOMEN VOTERS OF
*
RHODE ISLAND, MIRANDA OAKLEY, *
BARBARA MONAHAN, and MARY
*
BAKER,
*
Plaintiffs
*
*
VS.
* JULY 28, 2020
*
NELLIE M. GORBEA, in her
*
official capacity as Secretary *
of State of Rhode Island;
*
DIANE C. MEDEROS, LOUIS A.
*
DESIMONE, JR., JENNIFER L.
*
JOHNSON, RICHARD H. PIERCE,
*
ISADORE S. RAMOS, DAVID H.
*
SHOLES, and WILLIAM E. WEST, *
in their official capacities *
as members of the Rhode Island *
Board of Elections,
*
Defendants
*
* VIA VIDEO CONFERENCE
* * * * * * * * * * * * * * * *

17
18

BEFORE THE HONORABLE MARY S. McELROY

19

DISTRICT JUDGE

20

(Fairness Hearing)

21
22

APPEARANCES:

23

FOR THE PLAINTIFFS:

24
25

MICHAEL C. KEATS, ESQ.
Fried, Frank, Harris, Shriver
& Jacobson
One New York Plaza
New York, NY 10004

App. 35

2

1

FOR THE DEFENDANTS:
Nellie M. Gorbea

ANGEL TAVERAS, ESQ.
Greenberg Traurig
One International Place
Boston, MA 02110

Rhode Island Board of
Elections

RAYMOND A. MARCACCIO, ESQ.
Oliverio & Marcaccio
55 Dorrance Street, Ste 400
Providence, RI 02903

FOR THE PROPOSED
INTERVENORS:

THOMAS R. McCARTHY, ESQ
Consovoy McCarthy
1600 Wilson Blvd., Ste 700
Arlington, VA 22209

Court Reporter:

Denise P. Veitch, RPR
One Exchange Terrace
Providence, RI 02903

2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

App. 36

86

1
2

MR. McCARTHY:

Your Honor, one thing from

proposed intervenors?

3

THE COURT:

Mr. McCarthy, go right ahead.

4

MR. McCARTHY:

Thank you.

If your Honor is

5

inclined to enter an order of the court today approving

6

of the consent decree, proposed intervenors would like

7

a stay pending appeal.

8

THE COURT:

Okay.

9

MR. McCARTHY:

I understand that your Honor, if

10

your Honor endorses a consent decree your Honor is

11

probably not particularly likely to grant us the stay

12

pending appeal.

13

though typically to ask the District Court first, and

14

so if your Honor is disinclined to grant one, we would

15

appreciate it if your Honor would deny the request on

16

the record.

17

I appreciate that.

THE COURT:

It's a requirement

Sure, I understand that, and I

18

understand arguing things that you have to argue, so,

19

believe me.

20

MR. McCARTHY:

Thank you.

21

THE COURT:

22

decree, I've reviewed it.

23

provisions of the consent decree, and I find that the

24

settlement is fair, reasonable, and adequate to protect

25

the interests of all of the voters of Rhode Island,

So with respect to the consent
I've reviewed all of the

App. 37

87

1

including the proposed intervenors and the Plaintiffs

2

in this case.

3

We will issue a written order hopefully

4

tomorrow, but just so that you understand, I am

5

inclined to -- I am going to find that this consent

6

agreement is justified and lawful and fair.

7

inclined -- I need to say specifically I am granting, I

8

am making that finding.

9

So I'm not

With respect to intervention, I am denying the

10

petitioner's motion to intervene.

11

understand your argument, Mr. McCarthy, that

12

intervention happened as quickly as you could, having

13

been retained on Saturday evening.

14

the interests, the interests that you're claiming is an

15

interest in, I understand it, a fair election.

16

you said interest in enforcing the law, but the broader

17

interest is the interest in a fair election, which

18

you're claiming is put into jeopardy by the change in

19

this witness requirement at this time.

20

And I have to say I

But with respect to

I know

And as I understand your arguments, and they

21

were very well-articulated in your papers as well as

22

here, your argument is that the fairness of that

23

election is to be put into jeopardy by making the

24

mail-in ballot requirement, changing the mail-in ballot

25

requirement.

I'm very cognizant of the interest in a

App. 38

88

1

fair and free election.

There's a public interest that

2

this Court is required to consider, the parties are

3

required to consider it and have addressed it in their

4

papers, and there has been no, I find that there's been

5

no evidence that the mail-in ballot process has been,

6

is subject to any kind of fraud, which is one of the

7

things that I think that you put forth in your

8

interest.
But I have considered all of your arguments on

9
10

fairness, and I've allowed you rather extensively to

11

file papers and to argue here today.

12

you and I've done that, so I think that I don't find

13

that there's a gain in granting you intervenor status;

14

but I do find that the parties would be prejudiced by

15

it and the public would be prejudiced because the

16

election, as you've noted, is not in the too distant

17

future.

I've heard from

18

I understand, Mr. McCarthy, that you were

19

retained Saturday night; but delay is about parties and

20

not about lawyers, so, and while it is a short time in

21

number of days and number of court days, it is during a

22

time during which the entire case was settled.

23

could have, the Republican Party of the State or the

24

National Party could have filed a one-line intervention

25

on Thursday, on Friday, on Saturday, on Sunday before

App. 39

And you

89

1

midnight; you could have participated in the Friday

2

conference; could have participated in the discussions

3

over the weekend between the parties, and they could

4

have had persuasive input into either the path this

5

Court has taken or the path that the parties have taken

6

with respect to the settlement agreement.

7

Mr. Tavares and Mr. Marcaccio have indicated that

8

settlement, proposed drafts of settlements were first

9

circulated sometime Saturday afternoon, so certainly

And

10

there was enough time for you to participate.

11

stand on ceremony here.

12

who do appellate work have filed interventions in hours

13

in an afternoon and I think that it's reasonable in

14

this case, particularly because when we're not talking

15

about specific time, you know, a day is a lot to

16

somebody and not a lot to others.

17

where it's an election that is coming up quickly, as

18

you have pointed out, Mr. McCarthy, then the time

19

matters, and the fact that the proposed intervenors sat

20

on their rights during that time, I find they've not

21

met the timeliness requirement of either statutory or

22

the intervention as of right or intervention,

23

permissive intervention.

24
25

We don't

I know that the parties here

But in this case

But beyond that, because I've allowed you to
file papers, all of which I've read and considered, and

App. 40

90

1

because I've allowed you to argue here, I don't believe

2

that your rights are prejudiced.

3

the citizens of the State of Rhode Island to some

4

certainty with respect to the election would be

5

prejudiced if I were to delay this any further.

6

recognize that you have asked for a stay.

7

your request for a stay.

8
9
10
11

I think the rights of

And I

I'm denying

We will get written orders out as soon as
possible, but that allows you to know what the
landscape is at this time.
MR. McCARTHY:

Your Honor, may I ask one

12

question just for clarification.

13

actually said this, I think I know what your ruling is,

14

but can you tell me specifically what your ruling is

15

with regard to intervention for purposes of an appeal?

16

THE COURT:

Right.

I don't know if you

I'm denying your right to

17

intervene in this case.

18

and certainly you could intervene, you could file a

19

separate action if necessary, Mr. McCarthy.

20

denying your matter, your right to intervene as a

21

matter of right and permissibly with respect to just an

22

appeal as well.

23
24
25

It will delay things longer,

So I'm

Okay?

Is there anything further?
anybody?
(Pause)

App. 41

Anything from

91

1

THE COURT:

Okay.

We're in recess.

2

MR. KEATS:

Thank you, your Honor.

3

MR. MARCACCIO:

4

MR. McCARTHY:

5

(Adjourned)

Thank you, your Honor.
Thank you, your Honor.

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

App. 42

92

1

C E R T I F I C A T I O N

2
3
4
5
6

I, Denise P. Veitch, RPR, do hereby certify

7

that the foregoing pages are a true and accurate

8

transcription of my stenographic notes in the

9

above-entitled case held via video conference during

10

the COVID-19 pandemic.

11
12
13
14

/s/ Denise P. Veitch_
Denise P. Veitch, RPR
Federal Official Court Reporter

15
16
17

August 4, 2020
Date

18
19
20
21
22
23
24
25

App. 43

